Audit
Report
            DOD FINANCIAL AND FEEDER SYSTEMS
                   COMPLIANCE PROCESS

Report No. D-2002-044                 January 29, 2002



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
FMIP                  Financial Management Improvement Plan
GAO                   General Accounting Office
JFMIP                 Joint Financial Management Improvement Program
ODO                   Other Defense Organization
OMB                   Office of Management and Budget
OUSD (C)              Office of Under Secretary of Defense (Comptroller)
USD (C)               Under Secretary of Defense (Comptroller)
                       Office of the Inspector General, DoD
Report No. D-2002-044                                                 January 29, 2002
  (Project No. D2001FG-0085)

         DoD Financial and Feeder Systems Compliance Process

                               Executive Summary

Introduction. The Federal Financial Management Improvement Act of 1996 mandates
that financial management systems comply with Federal financial system requirements,
Federal accounting standards, and the U.S. Standard General Ledger at the transaction
level. Within DoD, those three mandates are generally referred to as Federal financial
management systems requirements. In January 2001, DoD identified 187 critical
systems and initiatives, and estimated that it will cost approximately $3.7 billion to
correct system deficiencies and result in systems that are compliant with Federal
financial management systems requirements.

On January 5, 2001, the Under Secretary of Defense (Comptroller) issued a
memorandum formally approving the DoD Financial and Feeder Systems Compliance
Process for implementation within the DoD. The DoD Financial and Feeder Systems
Compliance Process goal is to ensure compliance with applicable Federal financial
management systems requirements and enhance system’s capabilities to provide timely
and accurate financial data to senior DoD managers to aid decision making. On
July 19, 2001, the Secretary of Defense established the DoD Financial Management
Modernization Program and identified reliable and timely financial management
information to make effective business decisions as one of his highest priorities. Under
this direction, a DoD-wide blue print will be developed that prescribes how DoD
financial and non-financial feeder systems will interact. The National Defense
Authorization Act for FY 2002 mandates that DoD establish a DoD financial and feeder
systems compliance process and the Financial Management Modernization Executive
Committee. The Under Secretary of Defense (Comptroller) issued a memorandum on
October 12, 2001, to formally establish this Financial Management Modernization
Executive Committee to oversee the modernization effort. This committee will also
provide oversight to the DoD Financial and Feeder Systems Compliance Process.

Objectives. Our objective was to determine the effectiveness of the DoD Financial and
Feeder Systems Compliance Process to address compliance with applicable Federal
financial management systems requirements. Specifically, we determined whether the
DoD Financial and Feeder Systems Compliance Process would achieve compliance of
both individual and integrated systems.

Results. The DoD Financial and Feeder Systems Compliance Process had not been
fully implemented throughout DoD. The Air Force and the Defense Finance and
Accounting Service had completed substantial work in implementing their own
Year 2000-like compliance processes. However, the Army, Navy, Air Force, Defense
Finance and Accounting Service, Defense Logistics Agency, and 12 Other Defense
organizations needed to do more work toward implementing the DoD Financial and
Feeder Systems Compliance Process. The Army, Navy, Air Force, Defense Finance
and Accounting Service, and Defense Logistics Agency:

       l   had started but had not completed data mapping, and
       l   had not completed a critical inventory list.

The Army, Navy, Air Force, and Defense Finance and Accounting Service had issued
guidance. We contacted nine Other Defense Organizations outside the DoD
Intelligence community and three inside the DoD Intelligence community. Of the nine
Other Defense Organizations, personnel from four were not aware of the DoD
Financial and Feeder Systems Compliance Process, and five stated that their agency
was aware of the memo, but only one stated that the memo had been implemented.
This occurred because the Under Secretary of Defense (Comptroller) did not have
sufficient authority over the Military Departments and Defense agencies to effectively
implement the DoD Compliance Process. As a result, progress toward attaining
compliance with Federal and DoD financial management systems requirements had
been slow, although new legislation for FY 2002 and DoD initiatives are intended to
provide more effective management oversight in the future. For details of the audit
results, see the Finding section of this report.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) institutionalize the compliance process established under the National
Defense Authorization Act for FY 2002 in an appropriate DoD issuance. We also
recommend the Under Secretary of Defense (Comptroller) establish and implement
mechanisms to appropriately monitor the compliance process established under the
National Defense Authorization Act for FY 2002. Additionally, we recommend that
the Under Secretary of Defense (Comptroller) provide a clear definition of criticality
and ensure that adequate guidance for compliance of commercial software is provided.
We recommend that the Director, Defense Finance and Accounting Service provide
detailed coverage of requirements for data standardization and general controls in “A
Guide to Federal Requirements for Financial Management Systems.”

Management Comments. The Acting Deputy Chief Financial Officer, Office of the
Under Secretary of Defense (Comptroller) agreed to formalize the Compliance Process
in a DoD issuance, establish a data repository to monitor the Compliance Process, and
provide the appropriate scope and language for the systems certification. The Office of
the Under Secretary partially concurred to providing a clear definition of criticality.
The Office of the Under Secretary also agreed to provide commercial software
guidance. The Director of Systems Integration, Defense Finance and Accounting
Service stated that they will provide detailed coverage of data standardization and
general control requirements in “A Guide to Federal Requirements for Financial
Management Systems.” A discussion of the management comments is in the Finding
section of the report, and the complete text is in the Management Comments section.

Audit Response. The Under Secretary of Defense (Comptroller) and the Director of
Systems Integration, Defense Finance and Accounting Service were responsive to the
recommendations. Therefore, no further comments are required.




                                           ii
Table of Contents

Executive Summary

Introduction
     Background                                                           1
     Objectives                                                           3

Finding
     Status of the DoD Financial and Feeder Systems Compliance Process   4

Appendixes
     A. Audit Process
          Scope                                                          17
          Methodology                                                    18
          Prior Coverage                                                 18
     B. The DoD Compliance Process                                       19
     C. Other Defense Organization Status                                20
     D. Report Distribution                                              21

Management Comments
     Under Secretary of Defense (Comptroller)                            23
     Defense Finance and Accounting Service                              27
Background
           This audit was conducted pursuant to the responsibility of the Inspector General,
           DoD, under the Federal Financial Management Improvement Act of 1996 to
           assess the progress made toward substantial system compliance with applicable
           guidelines and standards. This report discusses the effectiveness of the DoD
           Financial and Feeder Systems Compliance Process (DoD Compliance Process).

           History of DoD Financial Management Systems. DoD has had long standing
           financial management problems chronicled by the General Accounting Office
           (GAO) and Inspector General, DoD, audit reports that document systemic
           system deficiencies. DoD acknowledged that their financial management
           systems are flawed with decade-old problems and lack the capability to provide
           reliable and timely information to DoD decision-makers. Also, DoD
           acknowledged that most systems do not comply with Federal financial
           management systems requirements.

           Responsibility for DoD Financial Management Systems. The Under
           Secretary of Defense (Comptroller) [USD (C)] is responsible for the
           development, oversight, and implementation of DoD financial reporting policy.
           The Defense Finance and Accounting Service (DFAS), under the authority of
           the USD (C), owns and operates 56 of the DoD accounting and finance systems
           and initiatives identified in the FY 2000 Financial Management Improvement
           Plan (FMIP). DFAS is responsible for implementing, modifying, and
           maintaining those systems. DFAS is also responsible for providing the Military
           Departments and Defense agencies (DoD Components) with consultative
           guidance and is jointly responsible for ensuring that DoD Component systems
           interact effectively with DFAS systems. DoD Components are responsible for
           implementing, modifying, and maintaining the feeder systems that provide
           significant amounts of data to the DFAS systems.

           DoD Financial and Feeder System Compliance Process. In 2000, the Office
           of Under Secretary of Defense (Comptroller) [OUSD (C)] began efforts to
           institute a Year 2000-like management approach to the DoD Compliance
           Process1. On January 5, 2001, the USD (C) issued a memorandum formally
           approving the DoD Compliance Process for implementation within DoD. The
           DoD Compliance Process goal is to ensure that critical financial and feeder
           systems are compliant with applicable Federal financial management systems
           requirements. The DoD Compliance Process will enhance the system’s
           capabilities to provide timely and accurate financial data to aid decision making.
           The DoD Compliance Process also identifies individual roles and responsibilities
           of the Senior Financial Management Oversight Council (Council) and DoD
           Components.



1
    Inspector General, DoD, Report No. D-2001-175, “Application of Year 2000 Lessons Learned,”
     August 22, 2001.
                                                   1
                  Senior Financial Management Oversight Council. The memorandum
           formally approved and established the Council as the governing body of the
           DoD Compliance Process. The memorandum also establishes the USD (C) as
           Council Chair, Council membership, and its responsibilities, to include
           overseeing a working group and verifying that exit criteria for each system has
           been completed.

                   DoD Components. DoD Components are responsible for ensuring that
           their systems comply with applicable Federal and DoD financial management
           requirements. DoD Components shall implement the five phases of the DoD
           Compliance Process and develop corresponding funding plans for each critical
           accounting, finance and feeder system. DoD Components are also responsible
           for obtaining independent system validations from the Inspector General, DoD;
           a consulting firm; or their respective audit agency.

           The Five Phases. The DoD Compliance Process (modeled after the Year 2000
           process) consists of five phases with defined exit criteria. The five phases are
           Awareness, Evaluation, Renovation, Validation, and Compliance. The defined
           exit criteria should be met before a system can advance from one phase to the
           next. The DoD Compliance Process states that the DFAS "A Guide to Federal
           Requirements for Financial Management Systems2" (Blue Book) shall be the
           guidance a system is evaluated against prior to entering the next phase. See
           Appendix B for a detailed discussion of the five phases of the DoD
           Compliance Process.

           Blue Book. The DoD Compliance Process establishes the Blue Book as the
           primary source of guidance in determining system compliance. The Blue Book
           is an extensive compilation of Federal and DoD requirements applicable to the
           DoD finance, accounting and feeder systems. The Blue Book contains
           numerous requirements issued by Office of Management and Budget (OMB),
           GAO, Department of Treasury, Joint Financial Management Improvement
           Program (JFMIP), and DoD. The Blue Book is organized into 15 major
           categories of requirements including general ledger, financial reporting,
           inventory, and travel. As such, the Blue Book is a valuable guide that can be
           used to assist systems managers in determining whether their systems
           substantially comply with Federal financial management systems requirements.

           DoD Financial Management Modernization Program. On June 27, 2001,
           DoD requested $100 million of FY 2002 funds for the development of a DoD-
           wide management systems enterprise architecture and the definition of standard
           data requirements. On July 19, 2001, the Secretary of Defense issued a
           memorandum establishing the DoD Financial Management Modernization
           Program. The requested $100 million is to fund the DoD Financial
           Management Modernization Program efforts. The USD (C) in coordination
           with the Under Secretary of Defense for Acquisition, Technology, and Logistics
           and the Chief Information Officer shall provide policy and oversee the execution
           of the program. The Program Management Office will develop a DoD-wide
           blue print, an enterprise architecture, which prescribes how DoD financial and

2
    Version 3, June 2001.
                                               2
     non-financial feeder systems will interact. The DoD Components shall be
     accountable to the Secretary of Defense for the results of their business
     operations and their financial management systems

     Financial Management Modernization Executive Committee. On
     October 2, 2001, the Federal bill, S.1438 as passed by the Senate, authorized
     appropriations for military activities for FY 2002. The S.1438 section 1007
     mandated the establishment of a Financial Management Modernization
     Executive Committee to establish a financial and feeder systems compliance
     process. Subsequently, on October 12, 2001, the USD (C) issued a
     memorandum formally establishing the Financial Management Modernization
     Executive Committee as specified in the July 19, 2001, Secretary of Defense
     memorandum. The Financial Management Modernization Executive Committee
     charter supercedes the Senior Financial Management Oversight Council charter.

     On December 28, 2001, Federal Bill S.1438 was signed into law as the National
     Defense Authorization Act for FY 2002. The National Defense Authorization
     Act for FY 2002 mandates that DoD establish the Financial Management
     Modernization Executive Committee. This committee shall establish a financial
     and feeder systems compliance process (Authorization Act Compliance
     Process). Additionally, this committee should develop, monitor, and supervise
     a management plan for implementing the Authorization Act Compliance
     Process. In addition, this committee must ensure the development and
     maintenance of a DoD enterprise architecture in conjunction with the
     compliance process efforts. This committee will be accountable to the Senior
     Executive Council that includes, among others, the Secretary and Deputy
     Secretary of Defense.

     Financial Management Improvement Plan. In January 2001, the USD (C)
     issued the FMIP to meet the requirements of the National Defense Authorization
     Act for FY 1998. The FMIP identifies DoD critical financial systems and
     initiatives intended to improve the financial data provided by critical feeder
     systems, such as, the DoD Compliance Process. The DoD owns one critical
     system initiative reported in the FMIP. The Army, Navy, Air Force, DFAS,
     Defense Logistics Agency (DLA), and Other Defense Organizations (ODO) own
     24, 34, 46, 57, 9, and 16 systems and initiatives reported in the FMIP,
     respectively. According to the FMIP, it will cost approximately $3.7 billion to
     make the critical systems compliant by 2003.

Objectives
     Our overall objective was to determine the effectiveness of the DoD Financial
     and Feeder Systems Compliance Process to address compliance with applicable
     Federal financial management systems requirements. Specifically, the objective
     was to determine whether the DoD Financial and Feeder Systems Compliance
     Process would achieve compliance of both individual and integrated systems.
     See Appendix A for a discussion of the audit scope and methodology and prior
     coverage related to the audit objectives.

                                        3
          Status of the DoD Financial and Feeder
          Systems Compliance Process
          The DoD Financial and Feeder Systems Compliance Process had not
          been fully implemented throughout DoD. The Air Force and the DFAS
          had completed substantial work in implementing their own
          Year 2000-like compliance processes. However, the Army, Navy,
          Air Force, DFAS, DLA, and 12 ODOs needed to do more work toward
          implementing the DoD Compliance Process. This occurred because the
          USD (C):

                 l   had not addressed other initiatives that logically should be
                     completed prior to the successful implementation of a
                     compliance process,

                 l   did not have sufficient authority over DoD Components to
                     effectively implement a compliance process,

                 l   did not have the mechanisms in place to adequately monitor a
                     compliance process implementation, and

                 l   had not established sufficient guidance to ensure adequate
                     reviews of financial management systems are performed.

          Additionally, some DoD Components had shown a lack of initiative in
          implementing the DoD Financial and Feeder Systems Compliance
          Process. As a result, progress toward attaining compliance with Federal
          and DoD financial management systems requirements had been slow,
          although new legislation and DoD initiatives are intended to provide
          more effective management oversight in the future.

National Defense Authorization Act for FY 2002
    The enactment of the National Defense Authorization Act for FY 2002
    establishes a DoD financial and feeder systems compliance process
    (Authorization Act Compliance Process) as law and will supercede the prior
    DoD Compliance Process. This report focuses on the issues identified during
    our audit of the DoD Compliance Process. Those issues should be addressed in
    the development and implementation of the Authorization Act Compliance
    Process.

DoD Compliance Process Status
    The DoD Compliance Process had not been implemented throughout DoD. In
    January 2001, DoD identified 187 critical systems and initiatives. DoD


                                       4
estimated that it will cost approximately $3.7 billion to correct system
deficiencies and result in systems compliant with Federal financial management
systems requirements. The Army, Navy, Air Force, DFAS, and DLA:

        l   had started but had not completed data mapping, and
        l   had not completed a critical inventory list.

The Army, Navy, Air Force, and DFAS had issued guidance. Data mapping, a
complete critical inventory list, and guidance are key to the successful
implementation of a compliance process. The USD (C), GAO, and Inspector
General, DoD, consider data mapping to be an important step in a compliance
process. Although data mapping is not a specific exit criteria, it is the logical
starting place to verify that a complete critical inventory list can be identified.
Data mapping is documenting the flow of financial information from point of
original entry to eventual reporting on the financial statements. Data mapping
should be completed early in the DoD Compliance Process to verify that all
critical and non-critical systems involved in the flow of data from transaction
origination to presentation on the financial statements can be identified. Data
mapping also helps verify that DoD Components have appropriately identified
and considered sources of financial information and their impact on overall data
accuracy. Following the completion of data mapping, a DoD Component will
be able to establish a complete critical inventory list, the first exit criteria in the
Awareness phase. Additionally, DoD Components that issued guidance had
progressed further in implementing a compliance process than those DoD
Components that have not.

The Navy, Air Force, and DFAS had independently established their own
Year 2000-like processes for determining compliance with Federal financial
management system requirements prior to the development of the DoD
Compliance Process. The Air Force and DFAS had completed substantial work
in implementing their respective Year 2000-like compliance processes.
However, the Army, Navy, Air Force, DFAS, DLA, and the 12 ODOs
contacted needed to do more work toward implementing the DoD Compliance
Process because none of those DoD Components have completed data mapping
or a critical inventory list.

DoD Component status and key measures of success for implementing a
compliance process are presented in the table below.


                         Compliance Process Measures

                                      Air
 Key Measures                        Force   DFAS    Army      Navy     DLA
 Started data mapping systems         Yes     Yes     Yes      Yes      Yes
 Completed data mapping systems       No      No      No        No       No
 Completed critical inventory list    No      No      No        No       No
 Issued guidance                      Yes     Yes     Yes      Yes       No



                                        5
        Air Force. Air Force completed substantial work in implementing its
        Year 2000-like compliance process prior to the development of the DoD
        Compliance Process. The Air Force reported its critical inventory list to include
        23 legacy, 21 ongoing, and 6 systems under development. However, the
        Air Force did not complete data mapping. Until Air Force has completed data
        mapping, the critical systems list may not be all-inclusive.

        The Air Force issued guidance for achieving system compliance with Federal
        financial management system requirements and established individual milestones
        for its systems with the overall milestone of September 2003. The Air Force
        categorized each system into one of five Air Force phases. The five Air Force
        phases are awareness, evaluation, renovation, validation, and compliance. The
        Air Force process varies from DoD because the Air Force does not certify
        substantial compliance of a system until successful completion of a validation
        audit. The DoD Compliance Process requires certification of the system prior
        to the request for validation. The Air Force should coordinate with the
        OUSD (C) to address the differences in the two processes to avoid confusion
        regarding which process they are referring to.

        The Air Force progress to achieve compliance can be partially attributed to the
        implementation of a team to oversee their process, Air Force Audit Agency or
        contractor3 assistance, a reporting tool to track systems progress, and briefings
        keeping management informed. The Air Force is using the Blue Book as
        guidance to determine compliance with the Federal financial management
        systems requirements and supplemented the Blue Book with specific
        requirements for system controls. The Air Force also established a web-based
        encyclopedia containing system information that includes interfaces, feeder
        systems, migration paths, and infrastructure. The Air Force is reporting
        three systems in its validation phase. Air Force Audit Agency is performing
        two of the validation audits and has contracted out the third.

        Defense Finance and Accounting Service. DFAS completed substantial work
        in implementing its own Year 2000-like process prior to the development of the
        DoD Compliance Process. DFAS is responsible for the compliance of
        20 DFAS systems and jointly responsible for 3 other systems within DoD.
        However, DFAS did not complete data mapping. Until DFAS has completed
        data mapping, the critical systems list may not be all-inclusive.

        In July 1998, DFAS developed guidance to determine compliance of its critical
        systems with Federal financial management system requirements. The DFAS
        process evolved into five phases and was commonly referred to as the DFAS
        Compliance Assessment Methodology. The five DFAS phases were awareness,
        evaluation, renovation, validation, and compliance. In May 2001, DFAS
        formally established the Systems Compliance Review Board Charter to review



3
The Air Force contracted with Grant Thornton and Associates to map its feeder systems to its general
fund balance sheet line items. The Air Force also contracted with Logicon to assist in the identification
of its financial systems inventory.
                                                    6
           systems compliance and recommend certification to the DFAS Director. Within
           the charter, DFAS included an outline of the revised DFAS Compliance Process
           that was updated to be in alignment with the DoD Compliance Process.

           The DFAS progress to achieve compliance can be partially attributed to the use
           of a spreadsheet to track its systems status, checkpoints4, points of contact, and
           milestones for each system. The DFAS Test Integration Data Repository
           maintains requirement profiles, test scripts and results, data collection plans,
           and is accessible via the World Wide Web. Additionally, DFAS contracted with
           KPMG Consulting and Arthur Andersen LLP to provide assistance in
           performing compliance assessments. Management is also provided monthly
           briefings on DFAS system efforts. As of May 2001, the DFAS Director issued
           a memorandum to the Council certifying that one system, Defense Industrial
           Financial Management System, is compliant. DFAS set an overall milestone
           of FY 2003 for its systems to be certified compliant.

           Army. The Army did not independently establish a Year 2000-like process for
           achieving compliance with Federal financial management systems requirements.
           The Army initiated data mapping and compiled a list of critical systems for
           submission to the FMIP. However, Army personnel stated that mapping efforts
           were halted because the process was considered time consuming and would
           require an extensive use of resources. Until the Army has completed data
           mapping, the critical inventory list may not be all-inclusive.

           On May 17, 2001, the Army Audit Agency and the Office of the Deputy
           Assistant Secretary of the Army (Financial Operations) entered into a
           memorandum of agreement defining their responsibilities for each phase of the
           DoD Compliance Process. On June 21, 2001, the Army issued memorandums
           to its components to provide awareness of the DoD Compliance Process and to
           identify 13 of its critical systems. The memorandums also identified the Army
           Audit Agency as the independent validation provider. The Chief Information
           Officer Executive Board was identified as the senior body to address Army-wide
           compliance issues. Army personnel reported that the Corps of Engineers
           Financial Management System was ready for validation.

           Navy. The Navy established a Year 2000-like process that incorporates several
           initiatives to include:

                    l   Office of Secretary of Defense Implementation Strategies,

                    l   business process reengineering, and

                    l   compliance with Federal financial management systems
                        requirements.

           The Navy plans to transition this process to coincide with the DoD Compliance
           Process but did not provide a milestone for this transition. The Navy

4
    Checkpoints outline the DFAS compliance assessment process and are steps to be completed that identify
    the responsible organization, associated deliverables, and recipients of those deliverables.
                                                     7
established 13 non-financial feeder teams, including representatives from
various audit agencies, 11 of which were aligned with the Office of Secretary of
Defense Implementation Strategies. The 13 non-financial feeder teams were
established to review Navy business practices and streamline those processes
and to achieve compliance with Federal financial management systems
requirements. We were unable to determine the success of those efforts to
achieve compliance with Federal financial management systems requirements.
On February 14, 2001, the Navy issued a memorandum to establish an
awareness of the DoD Compliance Process. On February 23, 2001, the Navy
also issued a memorandum requesting a complete systems inventory by each
major command. According to Navy personnel, this effort has been
substantially completed. The Navy did not report that any systems were ready
for validation.

Defense Logistics Agency. In January 2001, DLA issued a memorandum
proposing a strategy to implement the DoD Compliance Process. However, no
DLA implementation guidance had been issued. DLA did not complete data
mapping or its critical inventory list. DLA personnel stated that a critical
inventory list was submitted for the FMIP. However, the list did not include
systems that would be critical according to the DoD Compliance Process. DLA
is working with their contractor, Deloitte and Touche, to identify critical
financial and feeder systems but is focusing its efforts on the business system
modernization initiative. This initiative will replace many existing DLA
systems and is intended to correct financial management deficiencies that exist
within its business area. DLA did not report any systems ready for validation.

Other Defense Organizations. The sample of nine ODOs outside the DoD
Intelligence community and three inside the DoD Intelligence community have
made minimal progress in implementing the DoD Compliance Process. We
contacted nine ODOs, outside of the DoD Intelligence community, to determine
whether they were aware of the DoD Compliance Process. Five ODOs had
DoD imposed reporting requirements, and seven ODOs list systems ownership
in the FMIP. Of the personnel contacted from the nine ODOs, four were not
aware of the DoD Compliance Process, and five stated that their agency was
aware of the memo, but only one stated that the memo had been implemented.
For details of the specific ODOs, see Appendix C of this report.

Additionally, we contacted three ODOs within the DoD Intelligence community.
Two of those DoD Intelligence agencies list ownership of one critical system in
the FMIP. Personnel from the National Imagery and Mapping Agency, which
reports ownership of one critical system in the FMIP, were not aware of the
DoD Compliance Process. The two additional DoD Intelligence agencies need
to do more work toward implementing the DoD Compliance Process.
However, we do not discuss details of the results of these two DoD Intelligence
agencies because the information is classified.




                                    8
DoD Compliance Process Issues
       DoD acknowledges that flaws still exist within its financial management
       framework. Although the implementation of a compliance process should
       resolve some of those problems, the success of the DoD Compliance Process
       had been affected by other factors. Specifically, the USD (C):

               l   had not addressed other initiatives that logically should be completed
                   prior to the successful implementation of a compliance process,
               l   did not have sufficient authority over DoD Components to effectively
                   implement a compliance process,

               l   did not have the mechanisms in place to adequately monitor a
                   compliance process implementation, and

               l   had not established sufficient guidance to ensure adequate reviews of
                   financial management systems are performed.

       Other Initiatives. The January 5, 2001, memorandum acknowledges that DoD
       Components must execute the DoD Compliance Process in concert with other
       initiatives. However, some of those initiatives logically precede the effective
       implementation of a compliance process and include systems integration and
       standardization efforts and the DoD-wide enterprise architecture.

               Friedman Report. The Secretary of Defense contracted with the
       Institute for Defense Analyses to conduct a study and recommend a strategy for
       financial improvements within DoD. The study resulted in the report
       “Transforming Department of Defense Financial Management, a Strategy for
       Change,” April 13, 2001, also known as the Friedman Report. The report
       indicated that many positive projects are underway within DoD. However,
       those projects are narrow in focus, have insufficient leadership, and are not part
       of an overall integrated DoD-wide strategy. The report recommended a
       structural change within the DoD financial framework by developing standard
       integrated systems and mandating the standardization of finance, accounting and
       feeder systems. The July 19, 2001, Secretary of Defense memorandum; the
       October 12, 2001, USD (C) memorandum; and the National Defense
       Authorization Act for FY 2002 have addressed some of the Friedman report
       recommendations.

               Enterprise Architecture. GAO reported5 that DoD does not have a
       DoD-wide financial management enterprise architecture. An enterprise
       architecture provides an operational and technological view of an organization’s
       current and targeted environment. The enterprise architecture also provides a
       roadmap between the two environments. GAO recommended that DoD
       immediately designate DoD financial management modernization as a
5
GAO Report 01-525, Information Technology, Architecture Needed to Guide Modernization of DOD’s
Financial Operations, May 17, 2001.
                                              9
       departmental priority and implement an enterprise architecture. On
       June 27, 2001, DoD requested $100 million for development of a DoD-wide
       management systems enterprise architecture. On July 19, 2001, the Secretary of
       Defense established the DoD Financial Management Modernization Program to
       develop a DoD-wide blue print (an enterprise architecture) that prescribes how
       DoD financial and non-financial feeder systems will interact. Subsequently, on
       October 12, 2001, the USD (C) issued a memorandum establishing the Financial
       Management Modernization Executive Committee as the advisory body to the
       USD (C) for financial management modernization. Additionally, on
       November 29, 2001, a Request for Quotations was issued for the development
       of a DoD-wide Financial Management Enterprise Architecture for the
       OUSD (C).

       Direct Authority. The USD (C) did not have sufficient authority to effectively
       implement the DoD Compliance Process. GAO reported6 that DoD Components
       have been directed to follow USD (C) guidance. However, USD (C), as the
       Council Chair, lacked authority over the DoD Component feeder systems.
       Three later actions, the July 19, 2001, Secretary of Defense memorandum; the
       October 12, 2001, USD (C) memorandum; and the National Defense
       Authorization Act for FY 2002 have largely addressed GAO concerns.

       The July 19, 2001, the Secretary of Defense memorandum established the DoD
       Financial Management Modernization Program, giving the USD (C)
       responsibility for the overall direction of financial management reform within
       DoD. Additionally, the memorandum established a Program Management
       Office that shall report to the USD (C). The memorandum also states that DoD
       Components will be accountable to the Secretary of Defense for the results of
       their business operations and their financial management systems. On
       October 2, 2001, the Senate passed, the Federal Bill, S.1438 mandating the
       establishment of the Financial Management Modernization Executive Committee
       with the USD (C) as its chair. The Committee will be accountable to the Senior
       Executive Council that includes the Secretary and Deputy Secretary of Defense.
       The Committee’s accountability to the Senior Executive Council should also
       alleviate most of the GAO concerns on the USD (C) lack of authority over DoD
       Components. Anticipating that the Senate provision would become law, the
       USD (C) issued the October 12, 2001, memorandum formally establishing the
       Committee and superceding the Council. On December 28, 2001, the Federal
       Bill, S.1438 was signed into law as the National Defense Authorization Act for
       FY 2002. However, establishing the Authorization Act Compliance Process in
       a DoD issuance should also provide the authority necessary for implementation.

       Monitoring a Compliance Process. USD (C) did not have the mechanisms in
       place to adequately monitor the implementation of a compliance process.
       Specifically, the USD (C) had not implemented a systems database, and DoD
       Components have requested information on its status to track other systems not



6
GAO Report 01-525, Information Technology, “Architecture Needed to Guide Modernization of DOD’s
Financial Operations,” May 17, 2001.
                                              10
within their purview. The USD (C) had also not defined the appropriate
language for a DoD Component to certify system compliance and verify
consistency in the scope of a system certification.

        Systems Database. USD (C) personnel stated that a data call will be
requested from DoD Components to populate a system database with
information such as system status, milestones, interfaces, and funding. The
database is intended to blend information reporting requirements and track
systems in their progress. Until the system database is populated, the USD (C)
will not be able to monitor and control systems progressing through each of the
five phases.

DoD Components also remain unaware of the compliance status for systems not
in their purview, but affecting their business area. For example, the Standard
Procurement System and the Defense Travel System will impact the compliance
of other DoD Component business areas. However, the compliance status of
those systems is unknown to some DoD Components. Overall, compliance for a
business area cannot be determined until all systems composing the business
area are compliant. Once the systems database is available, DoD Components
should have access to the compliance status of other DoD systems that affect
their business areas.

        Certification. The USD (C) had not defined appropriate language for a
system certification to be submitted as part of the Renovation phase exit criteria.
The DoD Compliance Process goal is to ensure that financial and feeder systems
(both from a single systems and integrated systems perspectives) comply with
Federal financial management systems requirements. However, the DoD
Compliance Process Renovation phase requires DoD Components to certify that
their systems comply with all identified requirements based on the latest edition
of the Blue Book. Although the Blue Book is an extensive compilation of
requirements, it does not necessarily include all Federal requirements. DoD
Components should use the Blue Book as a tool in determining compliance, but
are also responsible for knowing all laws and regulations applicable to their
systems, which may not be included in the Blue Book. Therefore, DoD
Components should certify compliance based on the applicable requirements
identified in the latest edition of the Blue Book and other relevant requirements
as necessary. Also, certification of the application system alone does not
consider erroneous data streams from feeder systems, or systems controls
external to the application. Without standardized language identifying the scope
of the certification, DoD Components may certify that the application software
is compliant as a stand-alone system and not in an installed or integrated
environment.

Sufficiency of Guidance. The USD (C) had not established adequate guidance
for defining what constitutes a critical system. In addition, the Blue Book does
not reference sufficient criteria to ensure an adequate financial management
system review is performed. Also, the DoD Compliance Process incorrectly
links compliance with Federal financial management systems requirements to
JFMIP approved software. Adequate guidance should be provided for the DoD
Compliance Process to be successful.
                                    11
         Critical Definition. The DoD Compliance Process definition of a
critical financial management system remains unclear. The DoD Compliance
Process conceptually defines a critical financial management system as
providing information that is materially important to entity-wide financial
management, control and reporting. Criticality is based on the concept that a
system provides information that is important in producing reliable financial
reports, ensuring that the DoD missions are met, or assisting decision makers.
The DoD Compliance Process states that ascertaining the criticality of a system
is somewhat judgmental; therefore, it provides a materiality definition. For a
financial statement line item that is greater than, or equal to, 3 percent of total
entity assets, the reporting entity shall deem critical any system that is the
source of values equal to, or greater than, 10 percent of the total amount
reported on the applicable financial statement line item. This materiality
definition is to be used as a mechanism for determining criticality by quantifying
critical systems to achieve consistency. When defining the criticality of a
system, there is an uncertainty as to the use of the conceptual or the materiality
definition.

The DoD Compliance Process states that the DoD Components shall use the
materiality definition. However, the Army, Navy, and Air Force stated that not
all systems on their critical systems list would be considered critical according
to the materiality definition. For example, a system may be considered critical
according to the materiality definition. However, a system that provides data to
the critical system may not meet the materiality definition. Using the materiality
definition to determine criticality, DoD Components may fail to identify systems
that could impact the accuracy and reliability of data reported on the financial
statements. Therefore, systems not deemed critical according to the materiality
guidance may not be subjected to the DoD Compliance Process. Subsequently,
OUSD (C) personnel stated that based on the outcome of the DoD enterprise
architecture efforts, any system providing data to the financial statements should
be mapped and considered reportable. OUSD (C) should meet collectively with
DoD Components to clarify the critical definition issues that continue throughout
the DoD.

        Blue Book. The DoD Compliance Process states that the Blue Book
shall be the primary guidance that a system is evaluated against prior to entering
the next phase. Although we did not perform a complete assessment of the Blue
Book, we did determine that it lacks sufficient guidance to ensure compliance in
the areas of data standardization and general controls. A DoD Component that
certifies compliance using the Blue Book requirements may not have performed
a sufficient review to determine whether its systems substantially meets the
applicable requirements.

                Data standardization. The Blue Book does not adequately
reference sufficient guidance to ensure data standardization requirements will be
assessed for DoD financial management systems. OMB Circular A-127 requires
that each agency establish and maintain a single, integrated financial
management system. For a system to be integrated, it must provide standard
data classifications (definitions and formats) and common processes used for
similar transactions. An integrated system must also provide a design that
                                    12
           eliminates unnecessary duplication of transaction entry. DoD systems often
           require duplicative reentry, crosswalks, and manual workarounds. Although the
           Blue Book cites OMB Circular A-127, it is not likely that system owners will
           perform a sufficient review unless more definitive requirements are detailed in
           the Blue Book. The Blue Book should clearly define standard data
           classifications, common processes, and unnecessary duplication to ensure that
           system owners comply with the requirements. The DoD requested $100 million
           of FY 2002 funds for the USD (C) to develop an enterprise architecture and
           define standard data requirements. DFAS should update the Blue Book to
           reference those standards, once the USD (C) approves the standard data
           requirements.

                          General Controls. The Blue Book lacks sufficient and
           comprehensive coverage of general controls. General controls are management
           controls that apply to the overall computer operations of an agency. Examples
           of general controls include, but are not limited to:
                   l    establishing an overall security program,
                   l    implementing procedures for changing software,
                   l    separating duties that could allow unauthorized activity, and
                   l    establishing controls to monitor use of software.

           Some of those controls are referenced in OMB Circular A-130 and DoD
           Instruction 5200.407. Although the Blue Book cites guidance for some general
           controls, the guidance is minimal and may not ensure that those controls are
           operating effectively and ensuring the reliability of data. The Blue Book should
           provide coverage of general controls to ensure that system owners perform a
           sufficient review and reference the applicable Federal and DoD requirements.
           In addition, some general controls are not under the purview of system owners
           and will require coordination among the DoD Components and OUSD (C). The
           USD (C) is aware of those deficiencies, and DFAS plans to incorporate
           additional general controls in the next version of the Blue Book. However,
           because the USD (C) lacked the authority to effectively implement the DoD
           Compliance Process, DoD Components may still not perform a thorough
           review.

                    Compliance of JFMIP Certified Software. The JFMIP publishes the
           Core Financial System Requirements (core requirements) that serve as the basis
           to test commercial financial software. The DoD Compliance Process states that
           any system that is JFMIP approved may be placed in the Compliance phase.
           However, JFMIP personnel stated that approved commercial software does not
           ensure compliance because JFMIP core requirements do not cover all Federal
           financial management systems requirements that may be applicable to a system.
           A DoD Component purchasing commercial software with inventory, property or
           travel functions must meet additional requirements, which are not covered in the
           JFMIP core requirements testing. JFMIP also tests commercial software
           capabilities in an ideal environment and does not test how the commercial
           software is installed. For example, an agency may install a JFMIP approved

7
    DoD Information Technology Security Certification and Accreditation Process, December 30, 1997.
                                                   13
    system with U.S. Standard General Ledger capability, but may not set up the
    general ledger in compliance with the U.S. Standard General Ledger. In
    addition, JFMIP will test a system’s capability to interface correctly with
    another system; however, once installed, the interface may not be in
    compliance. As a result, DoD may incorrectly certify JFMIP approved systems
    as compliant with Federal financial management systems requirements. DoD
    should modify its guidance to ensure that JFMIP approved systems are installed
    correctly and compliance with requirements is adequately documented. This
    modification should ensure compliance with applicable Federal financial
    management system requirements not covered during JFMIP testing. Until DoD
    modifies its guidance, DoD should not report JFMIP approved software as
    compliant.

Conclusion
    This report identifies DoD Compliance Process issues that should be addressed
    in the development and implementation of the Authorization Act Compliance
    Process. The DoD Compliance Process goal is to achieve reliable financial
    management information to DoD decision makers in a timely manner and ensure
    compliance with applicable Federal financial management systems requirements.
    However, the USD (C) did not have sufficient authority and should consider
    preparing a DoD issuance to ensure that DoD Components implement the DoD
    Compliance Process. The DoD is also addressing a conglomeration of issues
    that will affect the DoD Compliance Process; therefore, the DoD Compliance
    Process should proceed systematically. Once those initiatives are addressed, the
    DoD Compliance Process can be reevaluated and restructured to be in alignment
    with the outcome. In addition, the USD (C) should implement the mechanisms
    necessary to monitor DoD Components’ progress and should reevaluate the
    guidance to ensure an adequate review of financial management systems.

Recommendations, Management Comments, and Audit
Response
    A. We recommend that the Under Secretary of Defense (Comptroller):

           1. Institutionalize the Authorization Act Compliance Process in an
    appropriate DoD issuance in order to provide the Under Secretary of
    Defense (Comptroller) explicit authority to ensure that the Military
    Departments and Defense agencies effectively implement the legislative
    provisions.

    Management Comments. The Acting Deputy Chief Financial Officer, Office
    of the Under Secretary of Defense (Comptroller) concurred and will incorporate
    this recommendation into the revised compliance process upon completion of
    their enterprise architecture efforts. The Acting Deputy also stated that, through
    the use of an independent contractor, it is developing a financial management
    enterprise architecture that will serve as the DoD blueprint for effective
    financial management reform. Because the scope of the enterprise architecture
                                          14
development is agency-wide, he believes the lessons learned from the
development effort will be substantial. Furthermore, the benefits resulting from
the enterprise architecture lessons learned justifies a delay in revising the current
compliance process. The development of the enterprise architecture is expected
to be completed by February 2003.

       2. Implement a systems database to monitor the progress of the
Military Departments and Defense agencies and ensure that the Military
Departments and Defense agencies have access to system information not in
their purview.

Management Comments. The Acting Deputy concurred and stated that during
the initial stages of creating the financial management enterprise architecture,
the contractor will develop a data repository containing an inventory of financial
management systems, feeder systems, commercial systems, and their respective
interfaces through their enterprise architecture efforts. This data repository will
be used for future DoD financial management systems compliance efforts.

       3. Establish the language and scope for systems to certify
compliance based on the applicable requirements identified in the latest
edition of the Defense Finance and Accounting Service, “A Guide to Federal
Requirements for Financial Management Systems” and other relevant
requirements.

Management Comments. The Acting Deputy concurred and will require
system owners to certify compliance with “all Federal and DoD requirements
that may be relevant to a particular financial management system” as part of the
revised compliance process. The revised compliance process will also specify
that a system owner must consider external data flows and interfaces when
certifying compliance.

      4. Provide a clear definition of a critical financial management
system.

Management Comments. The Acting Deputy partially concurred and stated
that defining criticality is the responsibility of the Office of Management and
Budget. However, the Under Secretary of Defense (Comptroller) will work
with the Office of Management and Budget to develop a more concise definition
of critical. This definition of critical will be included in the revised compliance
process.

Audit Response. Although the Acting Deputy partially concurred with the
recommendation, their proposed actions satisfy the intent of the
recommendation. No further comments are required.

       5. Establish guidance to ensure Joint Financial Management
Improvement Program approved systems are installed correctly and are
adequately documented to comply with applicable Federal and DoD
requirements.

                                     15
Management Comments. The Acting Deptuy concurred and will issue
commercial off-the-shelf software implementation guidance after the completion
of the enterprise architecture efforts. The commercial off-the-shelf software
guidance will include software approved by the Joint Financial Management
Improvement Program.

B. We recommend that the Director, Defense Finance and Accounting
Service amend the Defense Finance and Accounting Service, “A Guide to
Federal Requirements for Financial Management Systems” to include
detailed coverage of data standardization and general controls.

Management Comments. The Director of Systems Integration, Defense
Finance and Accounting Service, stated that version four of the Defense Finance
and Accounting Service, “A Guide to Federal Requirements for Financial
Management Systems” (Blue Book) will reference the DoD Data Dictionary
System. In addition, future versions of the Blue Book will include approved
data standards developed through the Under Secretary of Defense (Comptroller)
enterprise architecture effort. The Defense Finance and Accounting Service
plans to add additional references to automated systems general controls to
version four of the Blue Book. Additionally, the Defense Finance and
Accounting Service is considering developing a supplemental general control
guide for the Blue Book.




                                  16
Appendix A. Audit Process

Scope
    Work performed. We evaluated the DoD Compliance Process, established in
    the USD (C) January 5, 2001, memorandum and reviewed its effectiveness of
    achieving compliance with Federal financial management system requirements.
    We reviewed OMB, JFMIP, DoD, and other requirements as applicable to the
    DoD Compliance Process. We conducted a limited review of the Blue Book
    version 3, June 2001, to identify specific areas where the coverage of Federal
    financial management system requirements may be insufficient. However, we
    did not perform a complete assessment of Blue Book coverage of Federal
    financial management system requirements.

    We interviewed personnel from the OUSD (C), Business Policy Directorate on
    the status of work performed for the DoD Compliance Process and other DoD
    financial management initiatives. We also interviewed personnel from the
    Office of the Assistant Secretary of the Army (Financial Management) and the
    Army Audit Agency and obtained information on data mapping and guidance.
    We obtained documentation on Army’s preliminary critical inventory list. We
    met with personnel from the Office of Assistant Secretary of the Navy
    (Financial Management) and the Naval Audit Service and obtained
    documentation on their guidance and process. In addition, we obtained
    information on the status of data mapping, critical inventory list compilation,
    and the implementation of the DoD Compliance Process.

    We interviewed personnel from the Office of Assistant Secretary of the
    Air Force (Financial Management) and the Air Force Audit Agency. We
    obtained documentation on guidance, data mapping, an inventory list that
    included 50 systems, the status of individual systems, and the Air Force
    compliance process. We interviewed personnel from the DFAS, Systems
    Integration Directorate and obtained documentation on critical inventory lists
    which included 23 systems, the DFAS process, and guidance. In addition, we
    obtained information on data mapping. We interviewed DLA personnel and
    obtained documentation on the proposed strategies and information on the
    current status of their implementation of the DoD Compliance Process.

    We selected a sample of 12 ODOs based on DoD reporting requirements,
    ownership of critical systems per the FMIP, and auditor judgment. We
    conducted telephone and e-mail correspondence with a selection of ODOs
    regarding their awareness and whether they had initiated implementation of the
    DoD Compliance Process. Three DoD Intelligence Agencies were included
    among our sample of 12 ODOs. Two agencies were not included in the report
    because the information was classified. For a list of the ODOs outside the DoD
    Intelligence community contacted, see Appendix C.

    Limitations to Scope. We did not review the management control program
    related to the overall audit objective because DoD recognized that the
                                          17
    categorization of its financial management systems was a systemic control
    weakness in the FY 2000 Annual Statement of Assurance. The FY 2000 DoD
    Statement of Assurance stated the cause of this problem is that DoD accounting,
    finance, and feeder systems do not fully comply with Federal financial
    management systems requirements.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Use of Computer Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from March 2001 through November 2001 in accordance with generally
    accepted government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, OMB, and JFMIP. Further details are available
    upon request.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews relating to compliance with Federal financial
    management requirements. Unrestricted General Accounting Office reports can
    be accessed on the Internet at http://www.gao.gov. Unrestricted
    Inspector General, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audits/reports.




                                       18
Appendix B. The DoD Compliance Process
   The DoD Compliance Process provides guidance to ensure that critical
   accounting, finance, and feeder systems are compliant with applicable Federal
   financial management systems requirements. Details regarding the five phases
   of the DoD Compliance Process and the applicable Blue Book exit criteria
   follow below.

   Awareness. The Awareness phase promotes acknowledgement and
   participation in the DoD Compliance Process across DoD. A DoD Component
   should map the flow of its financial information from point of original entry to
   its presentation on the annual financial statements. To exit the Awareness
   phase, a DoD Component must identify and prioritize critical accounting,
   finance, and feeder systems and categorize each system by function in
   accordance with the Blue Book.

   Evaluation. The Evaluation phase requires the DoD Component to:

          l   define the compliance problem(s),
          l   decide the appropriate strategies to overcome the problem(s), and
          l   establish a plan to apply the resources to ensure compliance.

   To exit the Evaluation phase, a system owner must determine system
   deficiencies according to the Blue Book and develop a corrective action and
   funding plan to correct each deficiency.

   Renovation. The Renovation phase implements the DoD Component corrective
   action plans and conducts reviews necessary to bring non-compliant systems into
   compliance. To exit the Renovation phase, the DoD Component shall certify
   that the system(s) complies with all identified requirements according to the
   Blue Book. The Council, after receiving certification that corrective actions
   applicable to a system have been implemented, will request the Inspector
   General, DoD, to validate the certification.

   Validation. The Validation phase ensures that system problems are remedied
   and that the system is compliant. Validations, in the form of audits or
   acceptable reviews, will be conducted using a standard methodology
   promulgated by the Inspector General, DoD. To exit the Validation phase, a
   system owner shall obtain validation that the system complies with applicable
   compliance factors according to the Blue Book from:
          l   the Inspector General, DoD,
          l   a public accounting or consulting firm, or
          l   the respective Military Department audit agency.

   Compliance. The DoD Compliance phase ensures that required documentation
   is available and maintained for those systems, business areas, and reporting
   entities that have been determined compliant.

                                      19
 Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
  Inspector General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
  Inspector General, Department of the Air Force




                                         21
Other Defense Organizations
Director, Defense Advanced Research Projects Agency
Director, Defense Commissary Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency
Director, Defense Threat Reduction Agency
Director, DoD Human Resources Activity
Director, Missile Defense Agency
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         22
Under Secretary of Defense (Comptroller)
Comments




                       23
24
25
26
Defense Finance and Accounting Service
Comments




                      27
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personal of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

Paul J. Granetto
Kimberly A. Caprio
Kathryn M. Truex
Michael Perkins
Jacqueline L. Wicecarver
A. Dahnelle Alexander
Scott S. Brittingham
Margaret R. Westfall
Clara Li
Stephen G. Wynne
